FILE COPY

RE: Case No. 19-0397
DATE: 9/13/2019
COA #: 14-17-00764-CV
TC#: 15-04-04236-CV
STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas granted the motion for
extension of time to file motion for rehearing in the abovereferenced case. The motion for rehearing is due to be
filed in this office on or before Friday, October 11, 2019.
FURTHER REQUESTS FOR EXTENSIONS OF TIME FOR THIS FILING WILL
NOT BE CONSIDERED.
DISTRICT CLERK MONTGOMERY COUNTY
MONTGOMERY COUNTY COURT
P. O. BOX 2985
CONROE, TX 77305-2985
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 19-0397
DATE: 9/13/2019
COA #: 14-17-00764-CV
TC#: 15-04-04236-CV
STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas granted the motion for
extension of time to file motion for rehearing in the abovereferenced case. The motion for rehearing is due to be
filed in this office on or before Friday, October 11, 2019.
FURTHER REQUESTS FOR EXTENSIONS OF TIME FOR THIS FILING WILL
NOT BE CONSIDERED.
MR. RICHARD TRAVIS PIPER
DELANGE HUDSPETH MCCONNELL & TIBBETTS
LLP
1177 WEST LOOP SOUTH, SUITE 1700
HOUSTON, TX 77027-9031
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 19-0397
DATE: 9/13/2019
COA #: 14-17-00764-CV
TC#: 15-04-04236-CV
STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas granted the motion for
extension of time to file motion for rehearing in the abovereferenced case. The motion for rehearing is due to be
filed in this office on or before Friday, October 11, 2019.
FURTHER REQUESTS FOR EXTENSIONS OF TIME FOR THIS FILING WILL
NOT BE CONSIDERED.
MS. TONI L. SHARRETTS
LAW OFFICE OF TONI L. SHARRETTS
COLLINS
11054 NORTH HIDDEN OAKS
CONROE, TX 77384
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 19-0397
DATE: 9/13/2019
COA #: 14-17-00764-CV
TC#: 15-04-04236-CV
STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas granted the motion for
extension of time to file motion for rehearing in the abovereferenced case. The motion for rehearing is due to be
filed in this office on or before Friday, October 11, 2019.
FURTHER REQUESTS FOR EXTENSIONS OF TIME FOR THIS FILING WILL
NOT BE CONSIDERED.
MR. CHRISTOPHER A. PRINE (14TH COA)
CLERK, FOURTEENTH COURT OF APPEALS
HARRIS COUNTY 1910 COURTHOUSE
301 FANNIN SUITE 245
HOUSTON, TX 77002
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 19-0397
DATE: 9/13/2019
COA #: 14-17-00764-CV
TC#: 15-04-04236-CV
STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas granted the motion for
extension of time to file motion for rehearing in the abovereferenced case. The motion for rehearing is due to be
filed in this office on or before Friday, October 11, 2019.
FURTHER REQUESTS FOR EXTENSIONS OF TIME FOR THIS FILING WILL
NOT BE CONSIDERED.
MR. BEN A. BARING JR.
DELANGE HUDSPETH MCCONNELL & TIBBETS
LLP
1177 WEST LOOP SOUTH, SUITE 1700
HOUSTON, TX 77027
* DELIVERED VIA E-MAIL *

FILE COPY

RE: Case No. 19-0397
DATE: 9/13/2019
COA #: 14-17-00764-CV
TC#: 15-04-04236-CV
STYLE: COLLINS v. D.R. HORTON-TEXAS LTD.
Today the Supreme Court of Texas granted the motion for
extension of time to file motion for rehearing in the abovereferenced case. The motion for rehearing is due to be
filed in this office on or before Friday, October 11, 2019.
FURTHER REQUESTS FOR EXTENSIONS OF TIME FOR THIS FILING WILL
NOT BE CONSIDERED.
MR. PAUL J. MCCONNELL III
DELANGE HUDSPETH MCCONNELL & TIBBETS
LLP
1177 WEST LOOP SOUTH, SUITE 1700
HOUSTON, TX 77027
* DELIVERED VIA E-MAIL *

